                                                                                                    Legal Services Corporation
                                                                                                    Amrica's PKtner For Equal Justice




                                                                        May 30,2008



                      The Honorable Edward M. Kennedy, Chairman
                      Committee on Health, Education, Labor and Pensions
                      United States Senate
President
                      644 Dirksen Senate Office Building
Helaioc M.Bamen       Washington, DC 205 10
Board d Directors
Frank B. Strickland   Dear Chairman Kennedy:
Atlanta, GA
Chairman
                             The Office of the Inspector General of the Legal Services Corporation (LSC) has
Lillian R. BeVier
Charlottesvilk. VA    completed its Semiannual Report for the period October 1,2007 to March 3 1,2008. I am
Vice Chairman         transmitting the Report to Congress as required by law, along with this Management
lonam C. Chiles       Response containing additional information. The Board concurs with the presentation of
Little Rock, AR       statistics in Tables I, 11, and 111 of the report.
Thomas A. Fuentes
Lake Fores~CA
                            Congress entrusts LSC with a dual mission: to promote equal access to justice and to
Herbert S. Garten     provide high-quality civil legal assistance to low-income Americans. In fulfillment of that
Baltimue, MD
                      mission, LSC funds 137 programs with 923 offices serving every congressional district in the
David Hall            nation.
Boston MA

Michael D. McKay
Seattk. WA
                             Over 50 million Americans live in poverty and are eligible for LSC-funded programs.
                      Three out of four clients of LSC-funded programs are women-for the most part, mothers
Thomas R. Meires
Chicago, IL           with children. LSC-funded programs make a meaningful difference in the lives of their
                      clients-helping them secure basic human needs such as safe and habitable housing, an
Bernice Phillips
Buffilo, NY           adequate source of income, access to needed health care, and protection from abusive
Sarah M. Singleton
                      relationships.
Santa Fe, NM
                             In October 2005, with the unanimous approval of the Board, LSC released the first
                      comprehensive analysis of its kind, Documenting the Justice Gap: The Current Unmet Civil
                      Legal Needs of low-Income Americans. It demonstrates that LSC-funded programs are
                      meeting less than half the need for civil legal aid among the poor for one primary reason: lack
                      of resources. While the Congress in 2007 provided LSC with its first funding increase in four
                      years, circumstances halted this progress in 2008. We have a long way to go to close this
                      justice gap in America, but our Board is committed to work with the Congress in pursuit of
                      that goal.

                              Our nation promises equal access to justice for all, not just for those who can afford to
                       pay for it. That ideal may never be fully realized, but America can do better-we must if we
                       are to fulfill our nation's promise of equal justice for all.

                             LSC is governed by a bipartisan, 11-member Board of Directors appointed by the
                       President of the United States with the advice and consent of the Senate. The Board appoints
                       LSC's President, who serves as the chief executive officer. The Inspector General Act of
                       1988 established the Office of lnspector General (OIG) within LSC. The Inspector General is
                       appointed by the Board and operates under its general supervision.

                                                                                                    3333 K Smet, N W 3"' noor
                                                                                                    Washington DC U)007-3522
                                                                                                    Phone 202.295.1MO Fax 202.337.6797
                                                                                                    www.lsc.gov
Honorable Edward M. Kennedy
May 30,2008
Page 2


      Working together, the Board, LSC management, and the OIG have achieved substantial
success during this reporting period in addressing all of the recommendations of two recent
reports of the Government Accountability Office (GAO): Legal Services Corporation,
Governance and Accountability Practices Need to Be Modernized and Strengthened, August
2007, and Legal Services Corporation, Improved Internal Controls Needed in Grants
Management and Oversight, December 2007. As a result of hard work by all concerned, we
have created a separate Audit Committee for the Board; a Continuity of Operations Program
for the Corporation; a Code of Ethics and Conduct for Directors, Officers, and employees;
formal charters for the majority of our Board Committees; the plan for a risk management
program for the Corporation; a resolution of the Board that clarifies the roles and
responsibilities for fiscal oversight between our Office of Compliance Enforcement, Office of
Program Performance, and the OIG; and a current internal control review being conducted by
the OIG of those few programs where expenditures of federal funds were specifically
questioned by GAO.

      Also during this period, the Board appointed Jeffrey E. Schanz as the Corporation's
Inspector General, effective March 3,2008. Mr. Schanz comes to LSC from the U.S.
Department of Justice, where he served for the last 17 years as Director of the Office of
Policy and Planning, Audit Division, Office of the Inspector General. The Board and LSC
management have joined in welcoming Mr. Schanz and look forward to working with him in
the days ahead.

       It has been a very busy six months, but we end the period with more complete
management tools, more complete documentation of processes and procedures, better clarity
of roles and responsibilities in the critical area of grantee oversight, and a resolve to continue
to improve both the governance of the Board and the effectiveness and efficiency of the
Corporation in its grants management and oversight.

                                                   Sincerely,




                                                   Frank B. Strickland
                                                   Chairman, Board of Directors
